App. 1
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
MORGAN JOSEPH LANGAN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1057
Appeal from the United States Court of Federal
Claims in No. l:18-cv-01603-LKG,
Judge Lydia Kay Griggsby.
Decided: May 6, 2020
Morgan Joseph Langan, Cornville, AZ, pro se.
Anthony F. Schiavetti, Commercial Litigation
Branch, Civil Division, United States Department of
Justice, Washington, DC, for defendant-appellee. Also
represented by Joseph H. Hunt, Robert Edward
Kirschman, Jr., Loren Misha Preheim.
Before Chen, LINN, and STOLL, Circuit Judges.

App. 2
Per Curiam.
Plaintiff-Appellant Morgan Joseph Langan ap­
peals from a judgment from the Court of Federal
Claims (Claims Court) dismissing his complaint for
lack of subject matter jurisdiction. See Langan v.
United States, No. 18-cv-01603, 2019 WL 3857044
(Fed. CL Aug. 16, 2019). For the reasons explained be­
low, we affirm.

Background
Mr. Langan filed suit in the Claims Court against
the United States, the State of Arizona, and Yavapai
County, Arizona, alleging that certain banks operating
in Arizona and certain state and local county govern­
ment officials in Yavapai County improperly foreclosed
upon and confiscated his house and land. SAppx 27,
30-31.1 Mr. Langan alleged that he “was deprived of
[his] land, home, estate and property under operation
of State non-judicial foreclosure laws that impaired the
obligations required by [certain] contracts between the
parties.” SAppx 29. His complaint also appeared to as­
sert claims against the United States based upon the
First, Fifth and Fourteenth Amendments and Article 1
§ 10 of the United States Constitution. SAppx 28. As
relief, Mr. Langan sought to recover $1,398,838.05 in

1 Mr. Langan and the Government submitted their own ap­
pendices, which will be referred to with the prefixes “Appx” and
“SAppx,” respectively.

App. 3
damages from the United States and certain equitable
relief. SAppx 38-39.
The Government moved to dismiss for lack of sub­
ject matter jurisdiction or for failure to state a claim
pursuant to Rules 12(b)(1) and 12(b)(6) of the Rules of
the Court of Federal Claims. See Def.’s Mot. Dismiss,
No. 18-cv-01603 (Fed. Cl. Dec. 10, 2018), ECF No. 7 at
1-2. In response to the Government’s motion to dis­
miss, Mr. Langan raised a breach of contract claim
against the United States and asserted a violation of
an alleged federal land patent. Pl.’s Resp. Mot. Dismiss,
No. 18-cv-01603 (Fed. Cl. Mar. 11,2019), ECF No. 18 at
1. Mr. Langan also identified 28 U.S.C. §§ 1491(a)(1),
1493, 1498, and 42 U.S.C. § 1983 as the jurisdictional
bases for his claims and cause of action against the
United States. Id. at 4.
The Claims Court granted the Government’s mo­
tion to dismiss, holding that it lacked jurisdiction over
Mr. Langan’s claims on various grounds. Langan, 2019
WL 3857044, at *8. The court explained that it lacked
jurisdiction to entertain Mr. Langan’s complaint be­
cause he asserted claims against parties other than the
United States, did not establish the existence of a con­
tract with the United States, and pleaded various
other claims outside the court’s subject matter juris­
diction. Id. at *5-7. The court later denied Mr. Lan­
gan’s motion for reconsideration. Langan v. United
States, No. 18-cv-01603, 2019 WL 4643746, at *1 (Fed.
Cl. Sept. 24, 2019).

App. 4
Mr. Langan appealed. We have jurisdiction over
the appeal pursuant to 28 U.S.C. § 1295(a)(3).
Discussion
We review de novo the Claims Court’s legal con­
clusion that it lacked subject matter jurisdiction. Ste­
phens v. United States, 884 F.3d 1151, 1155 (Fed. Cir.
2018) (citing Coast Prof’l, Inc. u. United States, 828
F.3d 1349, 1354 (Fed. Cir. 2016)). As the plaintiff, Mr.
Langan “bears the burden of establishing subject mat­
ter jurisdiction by a preponderance of the evidence.”
Estes Exp. Lines u. United States, 739 F.3d 689, 692
(Fed. Cir. 2014) (citing Reynolds v. Army & Air Force
Exch. Sera, 846 F.2d 746, 748 (Fed. Cir. 1988)). When
reviewing a Claims Court’s decision on a “motion to
dismiss for lack of subject matter jurisdiction, [we] ac­
cept!] as true all uncontroverted factual allegations in
the complaint, and construe [] them in the light most
favorable to the plaintiff.” Id. (citing Cedars-Sinai Med.
Ctr. v. Watkins, 11 F.3d 1573,1583-84 (Fed. Cir. 1993)).
The Claims Court was correct to dismiss Mr. Langan’s complaint for lack ofjurisdiction. Pursuant to the
Tucker Act, the Claims Court has jurisdiction over
“any claim against the United States founded either
upon the Constitution, or any Act of Congress or any
regulation of an executive department, or upon any ex­
press or implied contract with the United States, or for
liquidated or unliquidated damages in cases not
sounding in tort.” 28 U.S.C. § 1491(a)(1). The Claims
Court’s jurisdiction under the Tucker Act “is confined

App. 5
to the rendition of money judgments in suits brought
for that relief against the United States,” United States
v. Sherwood, 312 U.S. 584, 588 (1941), and Mr. Langan’s complaint does not allege any claim within the
court’s jurisdiction under the Tucker Act.
Under the Tucker Act, the Claims Court only has
jurisdiction to hear “claim [s] against the United
States.” § 1491(a)(1); Sherwood, 312 U.S. at 588. “[I]f
the relief sought is against others than the United
States [,] the suit as to them must be ignored as beyond
the jurisdiction of the court.” Sherwood, 312 U.S. at
588. The essence of Mr. Langan’s complaint appears to
relate to actions by banks and certain state and local
government officials in Arizona. SAppx 27, 30—31. To
the extent the complaint sought relief against defend­
ants other than the United States, including private
parties and state and county entities, the Claims Court
correctly dismissed those claims. See Sherwood, 312
U.S. at 588 (The Claims Court is “without jurisdiction
of any suit brought against private parties.”); Conner
v. United States, 407 F. App’x 428, 430 (Fed. Cir. 2011)
(The Claims Court “does not have jurisdiction [over]
claims against Virginia, its entities, or its employees.”).
Further, the Tucker Act is “only a jurisdictional
statute.” United States v. Testan, 424 U.S. 392, 398
(1976). That means it “does not create a substantive
cause of action,” but instead requires the plaintiff to
identify a “money-mandating” source of law, i.e., “a sep­
arate source of substantive law that creates the right
to money damages.” Fisher v. United States, 402 F.3d
1167, 1172 (Fed. Cir. 2005) (en banc). Therefore, a

App. 6
plaintiff seeking to invoke the court’s Tucker Act juris­
diction must identify an independent source of a sub­
stantive cause of action for money damages from the
United States arising out of a contract, statute, regu­
lation, or constitutional provision. Id.; Jan’s Helicopter
Serv., Inc. v. Fed. Aviation Admin., 525 F.3d 1299,1306
(Fed. Cir. 2008). In this case, the Claims Court correctly
concluded that Mr. Langan’s complaint was not based
upon a money-mandating provision of law, or a con­
tract with the United States.
Mr. Langan’s complaint appeared to allege viola­
tions of his rights under the First, Fifth, and Four­
teenth Amendments and Article 1 § 10 of the United
States Constitution. SAppx 28. As the Claims Court
correctly noted, the First and Fourteenth Amendments
and Article 1 § 10 cannot support jurisdiction under
the Tucker Act because none of these constitutional
provisions are money-mandating. United States v. Con­
nolly, 716 F.2d 882, 887 (Fed. Cir. 1983) (“[T]he [F]irst
[AJmendment, standing alone, cannot be so interpreted
to command the payment of money.”); LeBlanc v.
United States, 50 F.3d 1025,1028 (Fed. Cir. 1995) (The
Fourteenth Amendment is not “a sufficient basis for ju­
risdiction because [it] do[es] not mandate payment of
money by the government.”); Olajide v. United States,
No. 16-01594, 2017 WL 3225048, at *4 (Fed. Cl. July
31,'2017) (Article I § 10 is “not money-mandating and
do[es] not create a duty for the government to pay.”).
While the Claims Court may consider takings claims
based upon the Fifth Amendment, the complaint as­
serted no factual predicate for the conclusion that the

App. 7
banks or state and local government officials acted on
behalf of the United States in connection with the fore­
closure of Mr. Langan’s property. Therefore, the Claims
Court correctly concluded that Mr. Langan failed to
identify a cognizable property interest that had been
taken by the United States. See Langan, 2019 WL
3857044, at *6.
The Claims Court also correctly dismissed Mr.
Langan’s breach of contract claim against the United
States for lack of subject matter jurisdiction because
Mr. Langan failed to plausibly establish the existence
of an express or implied contract with the United
States. See Langan, 2019 WL 3857044, at *5-6 (citing
Crewzers Fire Crew Transp., Inc. v. United States, 741
F.3d 1380, 1382 (Fed. Cir. 2014) (“To invoke the Court
of Federal Claims’ll jurisdiction under the Tucker Act,
a [plaintiff] must first show that its claims arose out
of a valid contract with the United States.”)). As the
plaintiff, Mr. Langan bears the burden of proving the
existence of a valid contract with the United States.
Kam-Almaz v. United States, 682 F.3d 1364,1368 (Fed.
Cir. 2012). “The party alleging a contract must show a
mutual intent to contract including an offer, an ac­
ceptance, and consideration.” Trauma Serv. Grp. v.
United States, 104 F.3d 1321, 1325 (Fed. Cir. 1997). “A
contract with the United States also requires that the
Government representative who entered or ratified the
agreement had actual authority to bind the United
States.” Id. As the Claims Court correctly concluded,
Mr. Langan failed to point to any evidence to plausibly

App. 8
establish these elements of a contract with the United
States.
Mr. Langan referred to an alleged federal land pa­
tent. But, as the Claims Court correctly noted, see Lan­
gan, 2019 WL 3857044, at *6, “[h]olding a land patent,
like any ownership interest in property, ... is not suf­
ficient on its own to give rise to a cause of action,” Dan­
iels v. United States, No. 17-01598, 2018 WL 1664476,
at *8 (Fed. Cl. Apr. 6, 2018); see also Ioane v. United
States, 4 F. App’x 762, 763 (Fed. Cir. 2001) (“[A] Federal
Land Patent is a deed and gives ... no rights against
the United States”). Mr. Langan has not identified any
independent money-mandating provision of law basis
for his land patent claim, as is required to invoke the
Claims Court’s jurisdiction under the Tucker Act. Nor
does Mr. Langan identify any adverse action taken by
the United States in regard to his land patent.
Next, the Claims Court correctly concluded it
lacked jurisdiction to consider Mr. Langan’s statutory
claims because the statutes relied upon were either
outside the court’s jurisdiction or inapplicable to his
claims. See Langan, 2019 WL 3857044, at *7. Mr. Lan­
gan identified the Tucker Act, 28 U.S.C. § 1491(a)(1), as
the jurisdictional basis for his case, but as previously
discussed, this is “only a jurisdictional statute” and
“does not create any substantive right enforceable
against the United States for money damages.” Testan,
424 U.S. at 398. He also relied on 28 U.S.C. § 1493, but
that statute was repealed in 1953. Also, as the Claims
Court correctly noted, 28 U.S.C. § 1498 is inapplicable
to Mr. Langan’s claims because it addresses the court’s

App. 9
jurisdiction regarding invention patents, not land pa­
tents. See Langan, 2019 WL 3857044, at *7; see also Oil
States Energy Servs., LLC v. Greene’s Energy Grp.,
LLC, 138 S. Ct. 1365, 1376 n.3 (2018) (“Modern inven­
tion patents . . . are meaningfully different from land
patents.”). Mr. Langan further identified 42 U.S.C.
§ 1983 as a substantive cause of action, but the Claims
Court does not possess jurisdiction to hear claims for
violations of this statute. See 28 U.S.C. § 1343 (provid­
ing that exclusive jurisdiction to hear civil rights
claims resides in the federal district courts); Kennedy
v. United States, 138 Fed. Cl. 611, 618 (2018) (“[0]nly
federal district courts possess jurisdiction to entertain
claims alleging civil rights violations” such as claims
brought pursuant to 42 U.S.C. § 1983.), appeal dis­
missed, 748 F. App’x 335 (Fed. Cir. 2019).
Finally, the remainder of Mr. Langan’s demands,
which are for equitable relief, are also outside the ju­
risdiction of the Claims Court. The complaint sought,
among other things, that the Claims Court “decree a
fair and equitable process to command specific perfor­
mance for officers of the government including Yavapai
County and the State of Arizona.” SAppx 39. Mr. Lan­
gan also asserted a “right to redeem [his land] in eq­
uity” based on “unjust enrichment.” Pl.’s Resp. Mot.
Dismiss, ECF No. 18 at 2. The Claims Court lacks
general equity jurisdiction and can only award equita­
ble relief “incident of and collateral to” a money judg­
ment. See 28 U.S.C. § 1491(a)(2); Roth v. United States,
378 F.3d 1371, 1384 (Fed. Cir. 2004) (“[T]he Court of
Federal Claims does not possess general equity

App. 10
jurisdiction.”); Martinez v. United States, 333 F.3d
1295, 1303 (Fed. Cir. 2003) (same). Further, Mr. Langan’s unjust enrichment claim, as an equitable cause
of action, is beyond the jurisdiction of the Claims
Court. 8x8, Inc. v. United States, 854 F.3d 1376, 1383
n.7 (Fed. Cir. 2017).
Conclusion
We have considered Mr. Langan’s remaining argu­
ments and find them unpersuasive. For the foregoing
reasons, the Claims Court lacked jurisdiction over Mr.
Langan’s claims, and properly dismissed the com­
plaint.
AFFIRMED
Costs
No costs.

App. 11
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
MORGAN JOSEPH LANGAN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1057
Appeal from the United States Court of Federal
Claims in No. l:18-cv-01603-LKG, Judge Lydia Kay
Griggsby.
(Filed: 05/21/2020)
Before CHEN, Linn, and STOLL, Circuit Judges.
Per Curiam.
ORDER
Morgan Joseph Langan submits a document titled
“Petition for a Writ of Mandamus to the Clerk the
United States Court of Federal Claims Issued Under
Exceptional Circumstances During this Peculiar
Emergency of Public Importance.”
Upon consideration thereof,

App. 12
It Is Ordered That:
The petition is denied.
For the Court
Mav 21. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 13
In the United States Court of Federal Claims
No. 18-1603C
Filed: September 24, 2019
NOT FOR PUBLICATION
MORGAN JOSEPH
LANGAN,
Plaintiff,
v.
THE UNITED STATES,
Defendant.

)
)
)
)
)
)
)
)

RCFC 59(a); Motion
For Reconsideration;
RCFC 60(b); Motion
For Relief From
Judgment;
RCFC 52; Motion To
Amend Judgment.

Morgan Joseph Langan, Cornville, AZ, Plaintiff,
pro se.
Anthony F. Schiavetti, Trial Attorney, L. Misha
Preheim, Assistant Director, Robert E. Kirschman, Jr.,
Director, Joseph H. Hunt, Assistant Attorney General,
Commercial Litigation Branch, Civil Division, United
States Department of Justice, Washington, D.C., for de­
fendant.

App. 14
MEMORANDUM OPINION AND
ORDER DENYING MOTIONS FOR
RECONSIDERATION. RELIEF FROM
JUDGMENT AND TO AMEND JUDGMENT
GRIGGSBY. Judge
I.

INTRODUCTION

This matter involved a claim by plaintiff pro se,
Morgan Joseph Langan, alleging that certain state and
county government officials in Yavapai County, Ari­
zona improperly confiscated his house and land. See
generally Compl. After the government moved to dis­
miss this matter for lack of subject-matter jurisdiction
and for failure to state a claim upon which relief can
be granted, and plaintiff filed motions for entry of de­
fault judgment and to consolidate cases, the Court: (1)
granted the government’s motion to dismiss; (2) denied-as-moot plaintiff’s motions for entry of default
judgment and to consolidate cases; and (3) dismissed
the complaint on August 16, 2019 (the “August 16,
2019, Decision”). Langan v. United States, No. 181603C, 2019 WL 3857044, at *1 (Fed. Cl. Aug. 16,2019).
On September 3, 2019, plaintiff timely filed mo­
tions for reconsideration, for relief from judgment and
to alter or amend judgment, pursuant to Rules 59(a),
60(b) and 52(b) of the Rules of the United States Court
of Federal Claims (“RCFC”). See generally PI. Mot. For
the reasons set forth below the Court DENIES plain­
tiff’s motions.

App. 15

II. FACTUAL AND PROCEDURAL BACK­
GROUND
A. Factual Background
In this breach of contract action, plaintiff alleged
that certain banks operating in the State of Arizona,
and certain Yavapai County government officials, im­
properly foreclosed upon and confiscated his land,
home and estate. Langan v. United States, No. 181603C, 2019 WL 3857044, at *1 (Fed. Cl. Aug. 16,2019).
Plaintiff also asserted claims against the United
States based upon an alleged land patent; the First,
Fifth and Fourteenth Amendments of the United
States Constitution; Article 1 § 10 of the United States
Constitution; 28 U.S.C. § 1491; 28 U.S.C. § 1498; 28
U.S.C. § 1493; and 42 U.S.C. § 1983. Id.
In the August 16, 2019, Decision, the Court dis­
missed plaintiff’s claims for lack of subject-matter ju­
risdiction for several reasons. First, the Court held
that it may not consider plaintiff’s claims against par­
ties other than the United States, because the United
States is the only proper defendant in cases brought in
this Court. Id. at *5. Second, the Court held that it
must also dismiss plaintiff’s breach of contract claim
against the United States, because plaintiff failed to
establish the existence of an express or implied-in-fact
contract with the United States. Id. at *5-6.
Third, the Court dismissed plaintiff’s land patent
claim for want of subject-matter jurisdiction, because
a land patent is not sufficient on its own to give rise to
a cause of action against the United States. Id. at *6.

App. 16
Fourth, the Court held that it could not entertain
plaintiff’s constitutional law claims, because the con­
stitutional provisions upon which plaintiff relied are
not money-mandating and plaintiff failed to identify a
cognizable property interest that has been taken by
the United States in the complaint. Id.
In addition, the Court held that it was without ju­
risdiction to consider plaintiff’s statutory claims, be­
cause these claims either may not be brought in this
Court or the statutes relied upon by plaintiff were un­
related to his claims. Id. at *7. Lastly, the Court held
that plaintiff’s request for equitable relief falls beyond
the jurisdictional boundaries of the Tucker Act, be­
cause the Court may only award equitable relief “inci­
dent [al] and collateral to” a money judgment. Id. ; see
also 28 U.S.C. § 1491(a)(2).1
III. LEGAL STANDARDS
A. RCFC 59(a)
Motions for reconsideration are governed by
RCFC 59, which provides, in relevant part that:
(1) Grounds for New Trial or Reconsider­
ation. The court may, on motion, grant a
new trial or a motion for reconsideration

1 The Court also denied plaintiff’s motions for entry of de­
fault judgment against the United States and to consolidate cases
as moot. Langan v. United States, No. 18-1603C, 2019 WL
3857044, at *8 (Fed. Cl. Aug. 16, 2019)

App. 17
on all or some of the issues—and to any
party—as follows:
(A) for any reason for which a new trial
has heretofore been granted in an ac­
tion at law in federal court;
(B) for any reason for which a rehearing
has heretofore been granted in a suit
in equity in federal court; or
(C) upon the showing of satisfactory evi­
dence, cumulative or otherwise, that
any fraud, wrong, or injustice has
been done to the United States.
RCFC 59(a)(1). This Court has held that “[t]o prevail
on a motion for reconsideration under RCFC 59, the
movant must identify a ‘manifest error of law, or mis­
take of fact.’ ” Shapiro u. Sec’y of Health & Human
Servs., 105 Fed. Cl. 353, 361 (2012) (quoting Fru-Con
Constr. Corp. v. United States, 44 Fed. Cl. 298, 300
(1999)), aff’d, 503 F. App’x 952 (Fed. Cir. 2013). And so,
the Court will grant a motion for reconsideration upon
a showing of either: “(i) an intervening change in con­
trolling law; (ii) the availability of previously unavail­
able evidence; or (iii) the necessity of granting the
motion to prevent manifest injustice.” Id. (citing PetroHunt, L.L.C. v. United States, No. 00-512L, 2012 WL
1957929, at *1 (Fed. Cl. May 30, 2012)); see also John­
son v. United States, 126 Fed. Cl. 558, 560 (2016).
Granting relief based upon a motion for reconsid­
eration also requires “ ‘a showing of extraordinary cir­
cumstances.’” Caldwell v. United States, 391 F.3d 1226,

App. 18
1235 (Fed. Cir. 2004) (quoting Fru-Con Constr. Corp.,
44 Fed. Cl. at 300). Given this, the Court has held that
motions “for reconsideration may not be used simply
as ‘an opportunity for a party to take a second bite at
the apple by rearguing positions that have been re­
jected.’ ” Johnson, 126 Fed. Cl. at 560 (quoting Shell Pe­
troleum, Inc. v. United States, 47 Fed. Cl. 812, 819
(2000)). And so, “[t]he decision whether to grant recon­
sideration lies largely within the discretion of the
[trial] court.” Yuba Nat. Res., Inc. u. United States, 904
F.2d 1577,1583 (Fed. Cir. 1990) (citations omitted).
B. RCFC 60(b)
RCFC 60(b) sets forth the grounds for obtaining
relief from a final judgment. Specifically, this rule pro­
vides that:
(b) Grounds for Relief from a Final
Judgment, Order, or Proceeding. On
motion and just terms, the court may re­
lieve a party or its legal representative
from a final judgment, order, or proceed­
ing for the following reasons:
(1) mistake, inadvertence, surprise, or
excusable neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have
been discovered in time to move for a
new trial under RCFC 59(b);

App. 19
(3) fraud (whether previously called in­
trinsic or extrinsic), misrepresenta­
tion, or misconduct by an opposing
party;
(4) the judgment is void;
(5) the judgment has been satisfied, re­
leased, or discharged; it is based on
an earlier judgment that has been re­
versed or vacated; or applying it pro­
spectively is no longer equitable; or
(6) any other reason that justifies relief.
RCFC 60(b). The United States Court of Appeals for
the Federal Circuit has held, within the context of the
entry of a default judgment, that this Court should bal­
ance three factors when determining whether to grant
relief pursuant to RCFC 60(b)(1) due to excusable ne­
glect: (1) whether the nonmovant will be prejudiced by
the granting of relief; (2) whether the movant has a
meritorious claim or defense; and (3) whether the mo­
vant’s dilemma was caused by his own culpable con­
duct. Info. Sys. And Networks Corp. v. United States,
994 F.2d 792, 795 (Fed. Cir. 1993) (applying excusable
neglect under our predecessor court’s identical rule);
see also Pioneer Inv. Servs. Co. v. Brunswick Assocs. Ltd.
P’ship, 507 U.S. 380, 395 (1993); Telzrow v. United
States, 127 Fed. Cl. 115,120 (2016); Stelco Holding Co.
u. United States, 44 Fed. Cl. 703, 708-09 (1999).

App. 20
C. RCFC 52(b)
Lastly, RCFC 52(b) provides that, “[o]n a party’s
motion filed no later than 30 days after the entry of
judgment, the [C]ourt may amend its findings—or
make additional findings—and may amend the judg­
ment accordingly.” RCFC 52(b).
IV. LEGAL ANALYSIS
A careful review of plaintiff’s motions for recon­
sideration, for relief from judgment and to alter or
amend judgment makes clear that plaintiff has not
met his heavy burden to demonstrate that such relief
is warranted in this case. And so, for the reasons set
forth below, the Court DENIES plaintiff’s motions.
In his motions, plaintiff requests that the Court
alter or amend the judgment entered in the August 16,
2019, Decision and he seeks relief from certain orders
issued by the Court on July 24, 2019,2 and August 16,
2019, respectively. PI. Mot. at 1-3. In support of these
requests, plaintiff argues, among other things, that: (1)
the record in this matter contains clerical errors; (2)
the Court did not respond to plaintiff’s motion to pro­
ceed in forma pauperis3; (3) “a serous injustice occurred
2 On July 24, 2019, the Court issued an order returning un­
filed several documents submitted by plaintiff because there is no
provision in the Rules of the United States Court of Federal
Claims for the filing of such documents (docket entry no. 27).
3 A review of the docket reveals that plaintiff did not file a
motion to proceed in forma pauperis in this case. See generally
Docket, No. 18-1603C.

App. 21
when the Court ruled contrary to the legal and equita­
ble interests of the plaintiff who was deprived of his
home, land and private assets absent good reason, fair­
ness, justice and due process;” and (4) there is evidence
of “ongoing harassment by [Yavapai] County that is
outside the grant of its municipal charter from the
United States.” Id. at 1-4. Plaintiff has not shown that
the relief he seeks is warranted for several reasons.
First, plaintiff has not shown that reconsideration
of the Court’s August 16, 2019, Decision is warranted
in this case, because he presents no allegations of an
intervening change in controlling law nor the availa­
bility of previously unavailable evidence. See generally
PL Mot. To prevail on a motion for reconsideration un­
der RCFC 59, plaintiff must identify a manifest error
of law, or mistake of fact. Shapiro v. Secy of Health &
Human Servs., 105 Fed. Cl. 353, 361 (2012) (quoting
Fru-Con Constr. Corp. v. United States, 44 Fed. Cl. 298,
300 (1999)), aff’d, 503 F. App’x 952 (Fed. Cir. 2013). And
so, the Court will grant a motion for reconsideration
upon a showing of either: “(i) an intervening change in
controlling law; (ii) the availability of previously una­
vailable evidence; or (iii) the necessity of granting the
motion to prevent manifest injustice.” Id. (citing PetroHunt, L.L.C. v. United States, No. 00-512L, 2012 WL
1957929, at *1 (Fed. Cl. May 30, 2012)); see also John­
son v. United States, 126 Fed. Cl. 558, 560 (2016).
Plaintiff does not allege an intervening change in
controlling law, or the availability of previously una­
vailable evidence in his motion. See generally PI. Mot.
Plaintiff does argue, however, that “a serious injustice

App. 22
occurred when the Court ruled contrary to the legal
and equitable interests of the plaintiff who was de­
prived of his home, land and private assets absent good
reason, fairness, justice and due process. . . Id. at 2.
But, plaintiff does not explain why granting his motion
for reconsideration would be necessary to prevent
manifest injustice in this case. Id. As discussed above,
the Court dismissed plaintiff’s complaint for lack of
subject-matter jurisdiction and the Court did not reach
the merits of any of plaintiff’s claims. Langan v. United
States, No. 18-1603C, 2019 WL 3857044, at *1-8 (Fed.
Cl. Aug. 16, 2019). Given this, plaintiff simply has not
shown how reconsideration of whether the Court may
consider his claims under the Tucker Act would pre­
vent the “serious injustice” that plaintiff alleges in his
motion for reconsideration. PI. Mot. at 2.
Plaintiff’s argument that reconsideration is ap­
propriate because of evidence of “ongoing harassment
by [Yavapai] County that is outside the grant of its mu­
nicipal charter from the United States” is equally una­
vailing. Id. at 3-4. Even if true, the purported conduct
of Yavapai County government officials is not a basis
for the Court to reconsider the decision to dismiss
plaintiff’s complaint against the United States for lack
of subject-matter jurisdiction. And so, the Court denies
plaintiff’s request for relief pursuant to RCFC 59(a).
Plaintiff similarly fails to show that relief under
RCFC 60(b) is warranted in this case. Plaintiff states
that he seeks relief from the orders issued in this mat­
ter on August 16, 2019, and July 24, 2019, “under eq­
uity rules in the nature of RCFC 60.” PI. Mot. at 1.

App. 23
Pursuant to RCFC 60(b), the Court may relieve a party
or its legal representative from a final judgment, order,
or proceeding for, among other things, mistake, inad­
vertence, surprise, or excusable neglect. RCFC
60(b)(1). While the precise basis for plaintiff’s motion
for relief from judgment is not clear, it appears that
plaintiff is seeking relief from judgment due to his sev­
eral unsuccessful attempts to direct the Clerk of the
Court to change the appearance of his name on the
docket, correct the filing date of the government’s mo­
tion to dismiss and to modify certain exhibits attached
to a reply brief in support of his motion for a default
judgment.4 PI. Mot. at 1-2. But, none of these concerns
are relevant to the Court’s determination that plaintiff
failed to establish that the Court possesses subjectmatter jurisdiction to consider any of his claims. And
so, the Court must also deny plaintiff’s request for re­
lief pursuant to RCFC 60(b).
As a final matter, plaintiff also has not shown that
it is appropriate to alter or amend the judgment en­
tered in connection with the Court’s August 16, 2019,
Decision. See RCFC 52(b). While plaintiff argues that
that the Court should alter or amend the judgment
4 On February 14, 2019, the Clerk’s Office informed plaintiff
that: (1) it could not change the appearance of plaintiff’s name on
the court docket; (2) it had no record of receiving plaintiff’s “orig­
inal bill with affidavit in support of proceedings;” and (3) the cor­
rect filing date of government’s motion to dismiss is December 10,
2018 (docket entry no. 13). On March 11, 2019, and July 19, 2019,
the Clerk’s Office informed plaintiff that it did not have the au­
thority to modify or supplement the filings in this case (docket
entry nos. 17, 26).

App. 24
entered in connection with the August 16, 2019, Deci­
sion, he points to no error in that judgment. See gener­
ally PI. Mot. Given this, the Court must also deny
plaintiff’s request for relief under RCFC 52(b).
V.

CONCLUSION

And so, for all of the aforementioned reasons, the
Court DENIES plaintiff’s motions for reconsideration,
for relief from judgment and to alter or amend judg­
ment.
IT IS SO ORDERED.
/s/ Lydia Kay Griggsby
LYDIA KAY GRIGGSBY
Judge

App. 25
In the United States Court of Federal Claims
No. 18-1603C
Filed, August 16, 2019
NOT FOR PUBLICATION
MORGAN JOSEPH
LANGAN,
Plaintiff,
v.
THE UNITED STATES,
Defendant.

)
)
)
)
)
)
)

Pro se; RCFC 12(b)(1);
Subject-Matter
Jurisdiction; MoneyMandating Source
Of Law; Breach Of
Contract; Default
Judgment.

Morgan Joseph Langan, Cornville, AZ, Plaintiff,
pro se.
Anthony F. Schiavetti, Trial Attorney, L. Misha
Preheim, Assistant Director, Robert E. Kirschman, Jr.,
Director, Joseph H. Hunt, Assistant Attorney General,
Commercial Litigation Branch, Civil Division, United
States Department of Justice, Washington, D.C., for de­
fendant.
MEMORANDUM OPINION AND ORDER
GRIGGSBY. Judge.
I.

INTRODUCTION

Plaintiff pro se, Morgan Joseph Langan, brings
this action against the United States alleging that cer­
tain state and county government officials in Yavapai
County, Arizona improperly confiscated his land. See
generally Compl. As relief, plaintiff seeks to recover

App. 26
$1,398,838.05 in monetary damages from the United
States and certain equitable relief. Id. at 12.
The government has moved to dismiss this matter
for lack of subject-matter jurisdiction and for failure to
state a claim upon which relief can be granted, pursu­
ant to Rules 12(b)(1) and (b)(6) of the Rules of the
United States Court of Federal Claims (“RCFC”). See
generally Def. Mot. Plaintiff has also filed motions for
entry of default judgment and to consolidate cases. See
generally PI. Mot. for Default. For the reasons dis­
cussed below, the Court: (1) GRANTS the govern­
ment’s motion to dismiss; (2) DENIES-AS-MOOT
plaintiff’s motions for entry of default judgment and to
consolidate cases; and (3) DISMISSES the complaint.
II.

FACTUAL AND
GROUND1

PROCEDURAL

BACK­

A. Factual Background
In the complaint, plaintiff alleges that “this is an
action for redemption of equity and return of payments
issued by mistake, error, inducement or fraud.” Compl.
at 1. Plaintiff also identifies the First, Fifth and Four­
teenth Amendments of the United States Constitution;
Article 1 § 10 of the United States Constitution; 28
U.S.C. § 1491; 28 U.S.C. § 1498; 28 U.S.C. § 1493; and
1 The facts recited in this Memorandum Opinion and Order
are taken from the complaint (“Compl.”) and the exhibits attached
thereto (“PI. Ex.”); the government’s motion to dismiss (“Def.
Mot.”); and plaintiff’s response thereto (“PI. Resp.”). Unless oth­
erwise noted herein, the facts recited are undisputed.

App. 27
42 U.S.C. § 1983 as the legal and jurisdictional bases
for his claims. Id. at 2-3; PL Resp. at 4.
Although plaintiff names the United States as a
defendant in this action, he appears to primarily allege
that certain banks operating in the State of Arizona,
and certain Yavapai County government officials, im­
properly foreclosed upon and confiscated his land,
home and estate. See generally Compl. Specifically,
plaintiff alleges that the National Bank of Arizona
(“NBAZ”) “completed a non-judicial foreclosure on [his]
land” on August 21, 2015. Id. at 4-5. Plaintiff also al­
leges that, on February 10, 2016, “Cenlar FSB com­
pleted a non-judicial foreclosure on [his] home” and
that NBAZ “claimed to purchase the home at a trustee
sale.” Id. at 5.
Thereafter, plaintiff alleges that the Yavapai
County Sheriff sold the land purchased by the trust to
a private party to satisfy NBAZ’s judgment against
plaintiff and that the Yavapai County Sheriff deputies
permitted representatives of the bank to enter onto his
land. Id, at 6. Plaintiff also alleges that he subse­
quently entered into a settlement agreement with
NBAZ. Id. at 7; see also PI. Exs. E, G. And so, plaintiff
contends that he “was deprived of [his] land, home, es­
tate and property under operation of State non-judicial
foreclosure laws that impaired the obligations re­
quired by [certain] contracts between the parties.”
Compl. at 3.
As relief, plaintiff seeks, among other things, to re­
cover $1,398,838.05 in monetary damages from the

App. 28
United States and he requests that the Court “decree
a fair and equitable process to command specific per­
formance for the officers of the government including
Yavapai County and the State of Arizona.” Id. at 13.
B. Procedural History
Plaintiff commenced this action on October 9,
2018. See generally Compl. On December 10, 2018, the
government filed a motion to dismiss this matter pur­
suant to RCFC 12(b)(1) and (b)(6). See generally Def.
Mot.
On December 20, 2018, plaintiff filed motions for
entry of default judgment and to consolidate cases. See
generally PI. Mot. for Default. On February 14, 2019,
the government filed a response and opposition to
plaintiff’s motions for entry of default judgment and to
consolidate cases. See generally Def. Resp. Plaintiff
filed a reply in support of his motions for entry of de­
fault judgment and to consolidate cases on February
25, 2019. See generally PI. Reply.
On March 11, 2019, plaintiff filed a response and
opposition to the government’s motion to dismiss. See
generally PI. Resp. On April 10, 2019, the government
filed a reply in support of its motion to dismiss. See
generally Def. Reply. On April 22, 2019, plaintiff filed a
sur-reply. See generally PI. Sur-Reply.
These matters having been fully briefed, the Court
resolves the pending motions.

App. 29
III. LEGAL STANDARDS
A. Pro Se Litigants
Plaintiff is proceeding in this matter pro se, with­
out the benefit of counsel. And so, the Court applies the
pleading requirements leniently. Beriont u. GTE Labs.,
Inc., 535 F.App’x 919, 926 n.2 (Fed. Cir. 2013) (citing
McZeal v. Sprint Nextel Corp., 501 F.3d 1354, 1356
(Fed. Cir. 2007)). When determining whether a com­
plaint filed by a pro se plaintiff is sufficient to survive
a motion to dismiss, this Court affords more leeway un­
der the rules to pro se plaintiffs than to plaintiffs who
are represented by counsel. See Haines v. Kerner, 404
U.S. 519, 520, 92 S.Ct. 594 (1972) (holding that pro se
complaints, “however inartfully pleaded,” are held to
“less stringent standards than formal pleadings
drafted by lawyers”); Matthews v. United States, 750
F.3d 1320,1322 (Fed. Cir. 2014). But, there “is no duty
on the part of the trial court to create a claim which
[the plaintiff] has not spelled out in his pleading.”
Lengen v. United States, 100 Fed. Cl. 317, 328 (2011)
(brackets existing) (internal quotation marks omitted)
(quoting Scogin u. United States, 33 Fed. Cl. 285, 293
(1995)).
While “a pro se plaintiff is held to a less stringent
standard than that of a plaintiff represented by an at­
torney . . . the pro se plaintiff, nevertheless, bears the
burden of establishing the Court’s jurisdiction by a
preponderance of the evidence.” Biles u. United States,
93 Fed. Cl. 163, 165 (2010) (citing Taylor v. United
States, 303 F.3d 1357, 1359 (Fed. Cir. 2002)). And so,

App. 30
the Court may excuse ambiguities, but not defects, in
the complaint. Colbert v. United States, 617 F.App’x
981, 983 (Fed. Cir. 2015); see also Demes v. United
States, 52 Fed. Cl. 365, 368 (2002) (“[T]he leniency af­
forded pro se litigants with respect to mere formalities
does not relieve them of jurisdictional requirements.”).
B. RCFC 12(b)(1)
When deciding a motion to dismiss upon the
ground that the Court does not possess subject-matter
jurisdiction pursuant to RCFC 12(b)(1), this Court
must assume that all undisputed facts alleged in the
complaint are true and must draw all reasonable infer­
ences in the non-movant’s favor. Erickson u. Pardus,
551 U.S. 89, 94 (2007); see also RCFC 12(b)(1). But,
plaintiff bears the burden of establishing subject-mat­
ter jurisdiction, and he must do so by a preponderance
of the evidence. Reynolds v. Army & Air Force Exch.
Serv., 846 F.2d 746, 748 (Fed. Cir. 1988). Should the
Court determine that “it lacks jurisdiction over the
subject matter, it must dismiss the claim.” Matthews u.
United States, 72 Fed. Cl. 274, 278 (2006).
In this regard, the United States Court of Federal
Claims is a court of limited jurisdiction and “pos­
sess [es] only that power authorized by Constitution
and statute. . . .” Kokkonen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994). The Tucker Act grants
the Court jurisdiction over:
[A]ny claim against the United States
founded either upon the Constitution, or any

App. 31
Act of Congress or any regulation of an execu­
tive department, or upon any express or im­
plied contract with the United States, or for
liquidated or unliquidated damages in cases
not sounding in tort.
28 U.S.C. § 1491(a)(1). The Tucker Act is, however, “a
jurisdictional statute; it does not create any substan­
tive right enforceable against the United States for
money damages. . . . [T]he Act merely confers jurisdic­
tion upon [the United States Court of Federal Claims]
whenever the substantive right exists.” United States
v. Testan, 424 U.S. 392, 398 (1976) (alterations origi­
nal). And so, to pursue a substantive right against the
United States under the Tucker Act, a plaintiff must
identify and plead a money-mandating constitutional
provision, statute, or regulation; an express or implied
contract with the United States; or an illegal exaction
of money by the United States. Cabral v. United States,
317 F.App’x 979, 981 (Fed. Cir. 2008) (citing Fisher v.
United States, 402 F.3d 1167,1172 (Fed. Cir. 2005)); see
also Martinez v. United States, 333 F.3d 1295, 1302
(Fed. Cir. 2003). “[A] statute or regulation is money­
mandating for jurisdictional purposes if it ‘can fairly
be interpreted as mandating compensation for dam­
ages sustained as a result of the breach of the duties
[it] impose[s].’” Fisher, 402 F.3d 1167, 1173 (Fed. Cir.
2005) (quoting United States u. Mitchell, 463 U.S. 206,
217 (1983)).
Specifically relevant to this dispute, this Court has
held that holding a land patent is not sufficient on its
own to give rise to a cause of action under the Tucker

App. 32
Act. Daniels v. United States, No. 17-1598C, 2018 WL
1664476 at *8 (Fed. Cl. April 6, 2018); see also Ioane v.
United States, 4 FApp’x 762, 763 (Fed. Cir. 2001). A
claim related to a land patent requires the complaint
to identify a substantive source of law that has been
violated. Id.
C. RCFC 12(b)(6)
When deciding a motion to dismiss based upon
failure to state a claim upon which relief can be
granted, pursuant to RCFC 12(b)(6), this Court must
also assume that all undisputed facts alleged in the
complaint are true and must draw all reasonable infer­
ences in the non-movant’s favor. See Redondo v. United
States, 542 F.App’x 908,910 (Fed. Cir. 2013). And so, to
survive a motion to dismiss under RCFC 12(b)(6), a
complaint must contain facts sufficient to “state a
claim to relief that is plausible on its face.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007); see also
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
When the complaint fails to “state a claim to relief
that is plausible on its face,” the Court must dismiss
the complaint. Iqbal, 556 U.S. at 678 (citation omitted).
On the other hand, “[w]hen there are well-pleaded fac­
tual allegations, a court should assume their veracity,”
and determine whether it is plausible, based upon
these facts, to find against the defendant. Id. at 66364, 678 (“A claim has facial plausibility when the
pleaded factual content allows the court to draw the

App. 33
reasonable inference that the defendant is liable for
the misconduct alleged.”).
Specifically relevant to this case, the United
States Court of Appeals for the Federal Circuit has
held that a property owner failed to state a viable
claim against the United States to establish a basis for
holding the United States liable for a bank’s foreclo­
sure upon his property, because the complaint was de­
void of any allegations to show that the banks acted on
behalf of the United States during the foreclosure.
Ioane, 4 F.App’x at 762-63. Id. at 763.
D. Contracts With The United States
Lastly, this Court possesses subject-matter juris­
diction to consider breach of contract claims against
the United States based upon an express or impliedin-fact contract. 28 U.S.C. § 1491(a)(1). Plaintiff bears
the burden of proving the existence of a contract with
the United States and he must demonstrate that there
is “something more than a cloud of evidence that could
be consistent with a contract to prove a contract and
enforceable contract rights.” D & N Bank v. United
States, 331 F.3d 1374,1377 (Fed. Cir. 2003).
To pursue a breach of contract claim against the
United States, plaintiff must have privity of contract
with the United States. Flexfab, L.L.C. v. United States,
424 F.3d 1254,1263 (Fed. Cir. 2005) (citations omitted)
(“[T]he ‘government consents to be sued only by those
with whom it has privity of contract.’ ”). Plaintiff must
also support his contract claim with well-pleaded

App. 34
allegations going to each element of a contract. See
Crewzers Fire Crew Transp., Inc. v. United States, 741
F.3d 1380,1382 (Fed. Cir. 2014) (holding that to invoke
the jurisdiction of this Court under the Tucker Act, a
plaintiff must present a well-pleaded allegation that
its claims arose out of a valid contract with the United
States); see also RCFC 9(k) (“In pleading a claim
founded on a contract or treaty, a party must identify
the substantive provisions of the contract or treaty on
which the party relies.”); Gonzalez-McCaulley Inv.
Grp., Inc. v. United States, 93 Fed. Cl. 710, 715 (2010).
In addition, RCFC 9(k) requires that a party identify
the substantive provisions of the contract on which the
party relies when pleading a claim founded on a con­
tract with the United States. RCFC 9(k). And so, this
rule ensures that the Court knows the relevant provi­
sions of a contract to render a decision on a breach of
contract claim. Gonzalez-McCaulley Inv. Grp., Inc., 93
Fed. Cl. at 715.
The requirements for establishing a contract with
the United States are identical for express and implied-in-fact contracts. See Night Vision Corp. v. United
States, 469 F.3d 1369, 1375 (Fed. Cir. 2006); Huntington Promotional & Supply, LLC v. United States, 114
Fed. Cl. 760, 767 (2014) (“The elements are the same
for an express or implied-in-fact contract. . . .”). Specif­
ically, a plaintiff must show: (1) mutuality of intent; (2)
consideration; (3) lack of ambiguity in the offer and ac­
ceptance; and (4) actual authority to bind the govern­
ment in contract on the part of the government official
whose conduct is relied upon. Kam-Almaz v. United

App. 35
States, 682 F.3d 1364, 1368 (Fed. Cir. 2012); see also
Trauma Seru. Grp. v. United States, 104 F.3d 1321,
1325 (Fed. Cir. 1997). In this regard, a government of­
ficial’s authority to bind the United States must be ex­
press or implied. Roy v. United States, 38 Fed. Cl. 184,
188-89 (1997), dismissed, 124 F.3d 224 (Fed. Cir. 1997).
And so, “the [gjovemment, unlike private parties, can­
not be bound by the apparent authority of its agents.”
Id. at 187.
IV. LEGAL ANALYSIS
The government has moved to dismiss this matter
for lack of subject-matter jurisdiction upon the
grounds that: (1) plaintiff alleges claims against par­
ties other than the United States; (2) plaintiff has not
established the existence of a contract with the United
States; (3) plaintiff fails to identify a money-mandat­
ing source of law to establish jurisdiction under the
Tucker Act; (4) the statutes upon which plaintiff relies
to establish jurisdiction are neither money-mandating
nor applicable to his claims; and (5) this Court may not
consider plaintiff’s request for general equitable relief.
Def. Mot. at 1-2; Def. Reply at 1-5. Plaintiff counters
that the Court possesses subject-matter jurisdiction to
consider his claims, because he has entered into an ex­
press contract with the government based upon a land
patent. PI. Resp. at 1. Plaintiff has also filed motions
for entry of default judgment against the government
and to consolidate this matter with Langan v. United
States, No. 18-900 (Fed. Cl. 2018). PI. Mot. for Default
at 1-2.

App. 36
For the reasons discussed below, the most gener­
ous reading of plaintiff’s complaint makes clear that
the Court does not possess subject-matter jurisdiction
to consider any of plaintiff’s claims. Because the Court
does not possess subject-matter jurisdiction to consider
plaintiff’s claims, plaintiff’s motions for entry of de­
fault judgment and to consolidate cases are also moot.
And so, the Court: (1) GRANTS the government’s mo­
tion to dismiss; (2) DENIES-AS-MOOT plaintiff’s mo­
tions for entry of default judgment and to consolidate
cases; and (3) DISMISSES the complaint. RCFC
12(b)(1).
A. The Court Does Not Possess Jurisdic­
tion To Consider Plaintiff’s Claims
1. The Court May Not Consider Claims
Against Parties Other Than The
United States
As an initial matter, to the extent that plaintiff as­
serts claims against the National Bank of Arizona and
Cenlar FSB and certain state and county government
officials, the Court does not possess subject-matter ju­
risdiction to consider these claims. Compl. at 1. In the
complaint, plaintiff alleges that certain banks operat­
ing in the State of Arizona and certain Yavapai County
government officials improperly foreclosed upon and
confiscated his land, home and estate. See generally id.
It is well-settled that the United States is the only
proper defendant in cases brought in this Court. Pikulin v. United States, 97 Fed. Cl. 71, 75 (2011); Stephenson v. United States, 58 Fed. Cl. 186,190 (2003) (“[T]he

App. 37
only proper defendant for any matter before this court
is the United States. . . .” (emphasis in original)). Given
this, to the extent that plaintiff seeks to bring claims
against these banks and state and county government
officials, the Court does not possess subject-matter ju­
risdiction to entertain plaintiff’s claims. Souders v. S.C.
Pub. Serv. Auth., 497 F.3d 1303, 1308 (Fed. Cir, 2007);
Anderson v. United States, 117 Fed. Cl. 330,331 (2014).
And so, the Court must dismiss these claims. RCFC
12(b)(1).
2. Plaintiff Has Not Alleged The Exist­
ence Of A Contract With The United
States
The Court must also dismiss plaintiff’s breach of
contract claim against the United States in this mat­
ter, because plaintiff fails to establish the existence of
an express or implied-in-fact contract with the United
States. While this Court may consider express or im­
plied-in-fact contract claims against the United States,
plaintiff bears the burden of proving the existence of a
contract with the government. See D & N Bank v.
United States, 331 F.3d 1374, 1376 (Fed. Cir. 2003). To
do so here, plaintiff must allege facts that plausibly
demonstrate: (1) mutuality of intent; (2) consideration;
(3) lack of ambiguity in the offer and acceptance; and
(4) actual authority to bind the government in contract
on the part of the government official whose conduct is
relied upon. Kam-Almaz v. United States, 682 F.3d
1364, 1368 (Fed. Cir. 2012); see also Truama Serv. Grp.
v. United States, 104 F.3d 1321, 1325 (Fed. Cir. 1997).

App. 38
In addition, plaintiff must demonstrate that there is
“something more than a cloud of evidence that could be
consistent with a contract to prove a contract and en­
forceable contract rights.” D & N Bank, 331 F.3d at
1376. Plaintiff fails to make such a showing in this
case.
In his response and opposition to the government’s
motion to dismiss, plaintiff raises for the first time a
breach of contract claim against the United States.2 PI.
Resp. at 1. But, the complaint is devoid of any factual
allegations to show mutual intent to contract, consid­
eration, and offer and acceptance, to show the exist­
ence of the alleged contract with the United States. See
generally Compl. Because plaintiff fails to point to any
evidence to establish the elements of either an express
or implied-in-fact contract with the government, the
Court must dismiss plaintiff’s breach of contract claim
for lack of subject-matter jurisdiction. See Crewzers
Fire Crew Transp. Inc. u. United States, 741 F.3d 1380,
1382 (Fed. Cir. 2014); D & N Bank, 331 F.3d at 1376;
see also RCFC 12(b)(1).
3. This Court Does Not Possess Juris­
diction To Consider Plaintiff’s Land
Patent Claim
The Court must also dismiss plaintiff’s land pa­
tent claim for want of subject-matter jurisdiction. In
2 The Court has held that it is generally improper to raise a
new claim in response to a motion to dismiss. Driessen v. United
States, 116 Fed. Cl. 33, 44 n.10 (2014).

App. 39
his response and opposition to the government’s mo­
tion to dismiss, plaintiff alleges that he entered into a
federal land patent with the government. See generally
PL Resp. But, this Court has held that a land patent is
not sufficient on its own to give rise to a cause of action
against the United States. Daniels u. United States, No.
17-1598C, 2018 WL 1664476 at *8 (Fed. Cl. April 6,
2018) (“[h]olding a land patent, like any ownership in­
terest in property, however, is not sufficient on its own
to give rise to a cause of action. A claim related to a
land patent requires the complaint to identify a sub­
stantive source of law that has been violated.”); see also
Ioane v. United States, 4 F.App’x 762, 763 (Fed. Cir.
2001) (stating that “a Federal Land Patent is a deed
and gives ... no rights against the United States”).
And so, the mere existence of a land patent cannot cre­
ate a valid cause of action against the government in
this case. Daniels, 2018 WL 1664476 at *8. Plaintiff
also fails to point to any other substantive provision of
law that has been violated in this case. And so, the
Court must also dismiss plaintiff’s claim based upon a
land patent.

4. Plaintiff’s Constitutional Claims Are
Jurisdictionally Precluded
The Court is also without jurisdiction to entertain
plaintiff’s constitutional claims, because the constitu­
tional provisions upon which plaintiff relies are not
money-mandating. Fisher, 402 F.3d at 1172. In the
complaint, plaintiff alleges that this Court possess

App. 40
subject-matter jurisdiction to consider his claims pur­
suant to the First, Fifth and Fourteenth Amendments
of the United States Constitution and Article I § 10 of
the United States Constitution. Compl. at 2.
But, the First and Fourteenth Amendments and
Article I § 10 of the United States Constitution are not
money-mandating sources of law. LeBlanc u. United
States, 50 F.3d 1025,1028 (Fed. Cir. 1995) (holding that
the Fourteenth Amendment is not a sufficient basis for
jurisdiction because it does not mandate payment of
money by the government); United States u. Connolly,
716 F.2d 882, 886-88 (Fed. Cir. 1983) (holding that the
First Amendment does not provide persons aggrieved
by government action with an action for damages in
the absence of some other jurisdictional basis); Olajide
v. United States, No. 16-1594C, 2017 WL 3225048, at
*4 (Fed. Cl. July 31,2017) (stating that Article I § 10 is
not money-mandating and does not create a duty for
the government to pay).
In addition, while the Court may consider takings
claims based upon the Fifth Amendment, plaintiff has
not identified a cognizable property interest that has
allegedly been taken by the United States in the com­
plaint. See generally Compl.; 28 U.S.C. § 1491(a); A &
DAuto Sales, Inc., 748 F.3d 1142,1151 (Fed. Cir. 2014);
Huntleigh USA Corp. v. United States, 525 F.3d 1370,
1377-78 (Fed. Cir. 2008). Notably, plaintiff alleges that
certain banks and local government officials improp­
erly foreclosed upon and confiscated his land. Compl.
at 1, 4-5. But, plaintiff has not alleged that these
banks, or the State of Arizona, acted on behalf of the

App. 41
United States in connection with the foreclosure pro­
ceedings. Ioane, 4 F.App’x at 763. And so, the Court
must dismiss plaintiff’s constitutional law claims.
RCFC 12(b)(1).3
5. The Statutes Plaintiff Relies Upon
To Establish Jurisdiction Are Inap­
plicable To Plaintiff’s Claims
The Court is also without jurisdiction to consider
plaintiff’s claims because the statutes upon which
plaintiff relies to establish jurisdiction under the
Tucker Act either may not be considered by this Court
or are unrelated to his claims. Compl. at 3; PI. Resp. at
4.
The Tucker Act is “a jurisdictional statute; it does
not create any substantive right enforceable against
the United States for money damages. . . . [T]he Act
merely confers jurisdiction upon [the United States
Court of Federal Claims] whenever the substantive
right exists.” United States v. Testan, 424 U.S. 392, 398
(1976) (alterations original). And so, to pursue a sub­
stantive right against the United States under the
Tucker Act, a plaintiff must identify and plead a
money-mandating constitutional provision, statute, or
regulation; an express or implied contract with the
3 Dismissal of plaintiff’s claim based upon the foreclosure on
his property is also appropriate pursuant to RCFC 12(b)(6), be­
cause plaintiff fails to allege that the banks or government offi­
cials acted on behalf of the United States in foreclosing upon his
property.

App. 42
United States; or an illegal exaction of money by the
United States. Cabral u. United States, 317 F.App’x
979,981 (Fed. Cir. 2008) (citing Fisher u. United States,
402 F.3d 1167,1172 (Fed. Cir. 2005)); see also Martinez
v. United States, 333 F.3d 1295,1302 (Fed. Cir. 2003).
First, plaintiff’s reliance upon Section 1983 to es­
tablish jurisdiction is misplaced. PI. Resp. at 4. It is
well-settled that only federal district courts may con­
sider claims based upon violations of Section 1983. See
e.g., Jones v. United States, 104 Fed. Cl. 92, 98 (2012)
(explaining that the Court of Federal Claims has no ju­
risdiction over claims based on, among other causes of
action, alleged “violations of . . . civil rights”). And so,
the Court may not consider plaintiff’s Section 1983
claim.
Second, 28 U.S.C. §§ 1498,1493 are not applicable
to plaintiff’s claims. Section 1498 addresses the
Court’s jurisdiction regarding invention patents. See
generally 28 U.S.C. § 1498. This Court has held that
“modern invention patents are distinguishable from
land patents because the Patent and Trademark Office
exercises continuing authority over invention patents,
whereas the government generally cedes ‘all authority
or control’ over the land in question when it issues a
land patent.” Christy, Inc. u. United States, 141 Fed. Cl.
641, 660 (2019). And so, Section 1498 is not applicable
to plaintiff’s claims. PL Resp. at 1. In addition, Section
1493 has been repealed. PL Resp. at 4; Pikulin, 97 Fed.
Cl. at 75. And so, this statute is also inapplicable to
plaintiff’s claims. Given this, the Court must dismiss
plaintiff’s claims based upon Sections 1493 and 1498.

App. 43
6. The Court May Not Grant The Equi­
table Relief That Plaintiff Seeks
Lastly, the government correctly argues that this
Court also does not possess subject-matter jurisdiction
to consider plaintiff’s request for equitable relief. Def.
Reply at 2-3. It is well-settled that this Court does not
possess general equity jurisdiction and that the Court
can only award equitable relief “incident [al] and collat­
eral to” a money judgment. 28 U.S.C. § 1491(a)(2); see
also Roth v. United States, 378 F.3d 1371, 1384 (Fed.
Cir. 2004) (“[T]he Court of Federal Claims does not pos­
sess general equity jurisdiction.”). In the complaint,
plaintiff requests that the Court “decree a fair and eq­
uitable process to command specific performance for
officers of the government including Yavapai County
and the State of Arizona. . . .” Compl. at 13. In addition,
in his response and opposition to the government’s mo­
tion to dismiss, plaintiff also argues that he has a
“right to redeem [his land] in equity.” PL Resp. at 2. Be­
cause plaintiff’s claims sound in equity, the Court must
also dismiss these claims. RCFC 12(b)(1).
B. The Court Denies Plaintiff’s Motions
For Entry Of Default Judgment And To
Consolidate Cases As Moot
As a final matter, plaintiff has filed motions for en­
try of default judgment against the United States and
to consolidate cases. Because the Court has deter­
mined that it does not possess subject-matter jurisdic­
tion to consider any of plaintiff’s claims, the Court
denies these motions as moot. See Wojtczak v. United

App. 44
States, No. 12-499C, 2012 WL 4903025, at *4 (Fed. Cl.
Oct. 17, 2012) (“Because plaintiff still has not raised
allegations over which this court has jurisdiction, the
court denies these motions as moot.”).
V.

CONCLUSION

In sum, the most generous reading of plaintiff’s
complaint makes clear that the Court does not possess
subject-matter jurisdiction to consider any of plain­
tiff’s claims. For these reasons, the Court must dismiss
this action for lack of subject-matter jurisdiction pur­
suant to RCFC 12(b)(1).
And so, for the foregoing reasons, the Court:
1.

GRANTS the government’s motion to dis­
miss;

2.

DENIES-AS-MOOT plaintiff’s motions for
entry of default judgment and to consolidate
cases; and

3.

DISMISSES the complaint.

The Clerk shall enter judgment accordingly.
Each party shall bear its own costs.
IT IS SO ORDERED.
/s/ Lydia Kay Griggsby
LYDIA KAY GRIGGSBY
Judge

App. 45
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
MORGAN JOSEPH LANGAN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1057
Appeal from the United States Court of Federal
Claims in No. l:18-cv-01603-LKG, Judge Lydia Kay
Griggsby.
ON PETITION FOR REHEARING EN BANC
(Filed 07/21/2020)
Before PROST, Chief Judge, NEWMAN, LOURIE, Linn*,
Dyk, Moore, O’Malley, Reyna, Wallach, Taranto,
Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam.

* Circuit Judge Linn participated only in the decision on the
petition for panel rehearing

App. 46
ORDER
Appellant Morgan Joseph Langan filed a petition
for rehearing en banc. The petition was first referred
as a petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in reg­
ular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 28,
2020.

For the Court
July 21. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

